Supreme Court, U.S.
PILED

SEP 1 5 2021
OFFICE OF THE CLERK

No.

IN THE SUPREME COURT OF THE UNITED STATES

DARWIN FIFIELD,
Petitioner,

vs.

MARK INCH, Sec'y FDC
Respondent(s),

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

RECEIVED
SEP 2 1 2021

Darwin FiField DC# U53497
(Your Name)
3189 Colonel Greg Malloy Road
(Address)
Crestview. Florida 32539
(City, State, Zip Code)
i

QUESTION(S) PRESENTED
The United States Constitution proscribes the use of excessive force during an arrest
when the Petitioner is not actively resisting and requires the appointment for indigent citizens a
counsel that provides effective assistance in the legal arena. In so doing, the Constitution at least
implicitly requires the principal’s agent to actively act on his principal's behalf. The court system
has held that an attorney is the client’s agent and as such the client is liable for all actions or
inactions taken by his agent. See Coleman v. Thompson, 501 U.S. 722 (1991). See also Gonzalez
v. United States, 553 U.S. 242 (2008).
Throughout the entire proceedings in the district court and the Eleventh Circuit Court of
Appeals, Petitioner argued that he was forced to represent himself because his agents/ counsels
refused to do any investigation in reference to Petitioner's charges, interview witnesses, suppress
statements, or anything else that Petitioner requested his agent to do.
Petitioner also argued throughout the district court and Eleventh Circuit Court of Appeals
proceedings that he was viciously attacked by Marion County Sheriffs Office deputies and
significantly injured, resulting in a broken right collar bone and dislocated right shoulder. Marion
County deputies were refusing him medical care until after he spoke with them. As a result of
their vicious attack of Petitioner and Petitioner’s constant need for medical care, Petitioner
waived his rights to not talk to deputies, resulting in an admission that Petitioner wrote the letter
to the victim's mother.
The Eleventh Circuit Court of Appeals granted Certificate of Appealability in this case
regarding Martinez's application to this case. Whereas the Eleventh Circuit rejected the State’s
argument that Martinez does not apply since Petitioner represented himself at trial, the Eleventh
Circuit Court of Appeals also rejected Petitioner’s arguments, finding that he failed to sufficiently
allege any substantial claims.
The questions presented are:
I.
Whether law enforcement's unprovoked excessive use of force during
an arrest should invalidate as coerced by threat or force a Petitioner's
later statement and all evidence secured from the questioning when
they occur in a single continuous episode?
II.

Whether a Petitioner's Sixth Amendment Right to represent himself
during trial was involuntary when his appointed counsel refused to
perform the reasonable actions Petitioner wanted him to complete

prior to trial?
III.

Whether counsel’s failure to abide by his principal's interim
instructions regarding pretrial investigations terminates his agent
status

u

LIST OF PARTIES
S) All parties appear in the caption of the case on the cover page.
□ All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

in

L

RELATED CASES
State v. FiField, Case Number: 2013 FC 002406 Marion County, Florida Sentence impose July
9, 2015.
FiField v. State, 190 So.3d 643; Case No: 5D15-2764 (Fla. 5th DCA2016)
FiField v. State, 2016 Fla. LEXIS 2171 (Fla. 2016)
FiField v. Secretary, Fla. Dep't of Corrections, 2019 U.S. Dist. LEXIS 117409; Case No: 5:18cv-309-BJD-PRL, U.S. District Court for the Middle District of Florida. Judgment entered
March 15,2019.
FiField v. Secretary, Fla. Dep't of Corrections, 2020 U.S. Dist. LEXIS 9924; No: 19-13096-BB,
U.S. Court of Appeals for the Eleventh Circuit. Judgment entered March 10, 2021;
Reconsideration denied July 13, 2021.

iv

TABLE OF CONTENTS
QUESTIONS PRESENTED

.11

PARTIES TO THE PROCEEDINGS

ill

TABLE OF CONTENTS

.v

INDEX TO APPENDICES

v

TABLE OF AUTHORITIES

Vll

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE.

4

PROCEEDINGS IN THE DISTRICT COURT.

7

PROCEEDINGS IN TEH ELEVENTH CIRCUIT COURT OF APPEALS

8

REASONS FOR GRANTING THE WRIT.
I.

10

This Court has held that it constitutes cruel and unusual punishment under the Fourth
Amendment when law enforcement use excessive force when arresting petitioners. This
Court has not, however, addressed if after using such unprovoked excessive force any
subsequent evidence obtained during an interrogation should be suppressed as being
coerced, compelled, involuntary
(A) Excessive Use of Force During Arrest,

10

(B) Involuntariness of Statement After Law Enforcements Unprovoked Use of Force Against
Petitioner.
10
(C) Petitioners Statement after being beaten bv Law Enforcement was therefore obtained and
introduced into Petitioner's trial in violation of Petitioner's Fifth Amendment Right,
11
II.

This Court has determined that a Petitioner has the right to represent himself at trial. This
Court has not determined, however, whether a Petitioner's representation of himself was
the result of an unconstitutional waiver of counsel when his counsel refused to conduct the
pretrial investigation of the case as directed by Petitioner - his principal, forcing Petitioner
to represent himself in an attempt to present a defense to the alleged crimes.
(A) Petitioner has a Sixth Amendment Right to Represent Himself..........

12

(B) Confirmed Principal-Agent Relationship and Assignment of Liability,

12

(C) Well-Settled Principal-Agent Law........................................................

12

v

(D) Petitioner’s Involuntary Waiver of his Constitutional Right to Competent Representation by
Counsel
13
III. This Court has held that when a Petitioner is represented by counsel that the Petitioner is
liable for the actions and inactions of his counsel because counsel is the principal's agent.
This Court has not, however, considered whether counsel's failure to abide by their
principal's interim instructions regarding pretrial investigations terminates their agent
status.
(A) Confirmed Principal-Agent Relationship and Assignment of Liability.

16

(B) Well-Settled Principal-Agent Law........................................................

16

(C) The Agent's Breach of Lovaltv (Duty) and Termination of Agency.....

17

(D) An Agent's Refusal to Act Based on their Principal's Interim Instructions Terminates the
17
Agent's Status

CONCLUSION

19
INDEX TO APPENDICES

APPENDIX A.

Eleventh Circuit Decision

APPENDIX B

M.D. Florida Report and Recommendation

APPENDIX C

........Eleventh Circuit Rehearing Decisions

APPENDIX D

M.D. Fla. Order

APPENDIX E.

...................................................................M.D. Order Denying Rehearing

APPENDIX F

..............................Fifth District Court of Appeal's Per Curiam Affirmance

APPENDIX G.

.................................................... Lower Court's Order Denying Rule 3.850

APPENDIX H

.............................. Lower Court's Order Denying Rehearing of Rule 3.850

APPENDIX I

Composite of Filings Submitted by Attorney General in COA Proceedings

APPENDIX J

....Newspaper Article regarding Officers being convicted of similar crimes

APPENDIX K.

.Certified Question Motion Regarding Constitutionality of Six person jury

vi

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Brand v. Casal, 877 F. 3d 1253, 1263 (11th Cir. 2017)

10

Brown v. Mississippi, 297 U.S. 278, 283 (1936)

10

Burlington Indus, v. Ellerth, 524 U.S. 742, 755, 118 S. Ct. 2257, 141 L.Ed.2d 633 (1998)...12, 16
Cadet v. Fla. Dep't of Corn, 853 F. 3d 1216, 1230 (11th Cir. 2017)

17

Chandler v. United States, 218 F. 3d 1305,1314 n. 15 (11th Cir. 2000) (en banc),

19

Chavez v. Martinez, 538 U.S. 760, 766,155 L.Ed.2d 984, 993,123 S. Ct. 1994 (2003)

10

Coleman v. Thompson, 501 U.S. 722, 753, 111 S. Ct. 2546,115 L.Ed.2d 640 (1991)
Faretta v. California, 422 U.S. 806, 821, 95 S. Ct. 2525, 45 L.Ed.2d 562, 574 (1975)

ii, 12, 16
12
u

Gonzalez v. United States, 553 U.S. 242 (2008)
Herrign v. New York,422 U.S. 853, 862, 95 S. Ct. 2550, 2555 (1975)

13

Iowa v. Tovar, 541 U.S. 77, 81, 158 L.Ed.2d 209, 124 S. Ct. 1379 (2004)

15

Langfittv. Federal Marine Terminals, Inc., 647 F. 3d 1116,1120 (11th Cir. 2011)

13,17

Link v. Wabash R. Co., 370 U.S. 626, 634, 82 S. Ct. 1386, 8 L.Ed.2d 734 (1962)

12, 16

Maples v. Thomas, 565 U.S. 266, 132 S. Ct. 912, 181 L.Ed.2d 807, 821 (2012)

12,16
2

Martinez v. Ryan, 132 S. Ct. 1309 (2012)
Merits Evitts, 469 U.S. at 395, 105 S. Ct. 835

13

Patton v. United States, 74 L.Ed. 854, 281 U.S. 276 (April 1930)

15

Ramos v. Louisiana, 140 S. Ct. 1390, 206 L.Ed.2d 583 (2020)

15

Tennessee v. Garner, 471 U.S. 1, 85 L.Ed.2d 1,105 S. Ct. 1694 (1985)

10

Thompson v. Utah,42 L.Ed. 1061, 170 U.S. 343 (Apirl 1898)

15

Voh Moltke v. Gillies, 332 U.S. 708, 725-26, 68 S. Ct. 316, 324

13

Vll

STATUTES AND RULES
.2

28 U.S.C. § 1254(1)
OTHER
Restatement (Second) of Agency § 1(1), (2), cmt. d (1958)

13,17

Restatement (Second) of Agency § 1(1), (2), cmt. e (1958)

13,17

Restatement (Third) of Agency § 1.01 cmt. f(l)

Vlll

13, 16,18

PETITION FOR WRIT OF CERTIORARI
Petitioner Darwin FiField respectfully petitions for a writ of certiorari to review the
opinion of the United States Court of Appeals for the Eleventh Circuit entered in this matter on
July 13, 2021, denying the Petitioner’s Certificate of Appealability and affirming the judgment of
the United States District Court for the Middle District of Florida.
OPINIONS BELOW
IE] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A to the petition and is
E reported at 2021 U.S. App. LEXIS 6934; or,
□ has been designated for publication but is not yet reported; or,
□ is unpublished.
The opinion of the United States district court appears at Appendix B to the petition and is
0 reported at 2019 U.S. Dist. LEXIS 117409 or,
□ has been designated for publication but is not yet reported; or,
□ is unpublished.
IEI For cases from state courts:
The opinion of the highest state court to review the merits appears at Appendix F to the
petition and is
IE1 reported at 190 So.3d 643; or,
□ has been designated for publication but is not yet reported; or,
□ is unpublished.
The opinion of the Fifth District court appears at Appendix F to the petition and is
IEI reported at 190 So.3d 643; or,
□ has been designated for publication but is not yet reported; or,
□ is unpublished.
JURISDICTION
IEI For cases from federal courts:
The date on which the United States Court of Appeals decided my case was March 10,
2021. A copy of that decision appears at Appendix A.
Page 1 of 19

□ No petition for rehearing was timely filed in my case.
IS A timely petition for rehearing was denied by the United States Court of Appeals on
the following date: July 13, 2021, and a copy of the order denying rehearing appears
at Appendix C.
□ An extension of time to file the petition for a writ of certiorari was granted to and
(date) in
including ________
(date) on
Application No.___
IS For cases from state courts:
The date on which the highest state court decided my case was April 12, 2016, and
appears in Appendix F.
IS No petition for rehearing was timely filed in my case.
□ A timely petition for rehearing was denied by the United States Court of Appeals on
, and a copy of the order denying
the following date:________
rehearing appears at Appendix
□ An extension of time to file the petition for a writ of certiorari was granted to and
(date) in
including ____
(date) on
Application No.
On March 15, 2019, the United States District Court denied Petitioner’s Petition for Writ
of Habeas Corpus. Petitioner timely sought Certificate of Appealability in this case which the
district court denied on April 15, 2019. But, after applying to the Eleventh Circuit Court of
Appeals, that court granted COA on March 30, 2020 on the specific issue on whether the district
court enred when it failed to consider if Martinez v. Ryan applied to forgive the procedural
default of Petitioner's habeas corpus claims before denying the petition. Petitioner was appointed
counsel for the COA on March 30, 2020. COA was subsequently denied on March 10, 2021, with
reconsideration being denied on July 13, 2021. Petitioner's Petition for Writ of Certiorari is
timely filed if date stamped on or before October 11, 2021. This Court has Certiorari jurisdiction
to review the United States Court of Appeals decision. See 28 U.S.C. § 1254(1).

Page 2 of 19

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
FOURTH AMENDMENT OF THE UNITED STATES CONSTITUTION
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no warrants shall issue, but upon
probable cause, supported by oath or affirmation, and particularly describing the place to be
searched, and the persons or things to be seized.
FIFTH AMENDMENT OF THE UNITED STATES CONSTITUTION
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the land or naval forces, or
in the militia, when in actual service in time of war or public danger; nor shall any person be
subject for the same offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life, liberty, or property,
without due process of law; nor shall private property be taken for public use, without just
compensation.
SIXTH AMENDMENT OF THE UNITED STATES CONSTITUTION
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be informed of the nature and cause
of the accusation; to be confronted with the witnesses against him; to have compulsory process
for obtaining witnesses in his favor, and to have the assistance of counsel for his defense.
FOURTEENTH AMENDMENT. Section 1, OF THE UNITED STATES CONSTITUTION
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

Page 3 of 19

STATEMENT OF THE CASE
Petitioner was arrested on July 24, 2013, on two counts of lewd and lascivious
molestation.
Law enforcement officers searched Petitioner's home with a search warrant that was
premised on the complainant's statement. The complainant claimed the Petitioner had guns,
bomb making material, nude photographs of the complainant, computer with child pom on it,
and a tablet that contained nude photographs of complainant with her consent.
During the search, law enforcement sought evidence of the criminal offenses that the
complainant said occurred at the home. No evidence of any criminal activity was discovered
despite the home being searched by multiple law enforcement officers from 8 a.m. until 3:30
p.m. Petitioner was not present when the home was searched. Law enforcement officers broke
his dishes, tore up his clothing, and stole a flat screen television, well over a hundred store
bought DVDs, CD player and several hundred CDs, two high tech DVD players, a VCR player
and hundreds of VCR store bought tapes, and took more than $5,200.00 in cash, and dumped
food all over the floor. Law enforcement did not write out or supply Petitioner with a list of the
items or cash taken. All four of the Petitioners attorneys refused to make the police turn over a
list of what was taken from the Petitioner's home by the police.
After searching Petitioner's rental home, law enforcement came to Petitioner's place of
employment. Again no evidence of any criminal activities were discovered. Law enforcement
entered Petitioner's place of work that was posted as private property with no warrant to arrest
Petitioner. Still law enforcement entered the posted private property of Petitioner's employer and
located Petitioner. Law enforcement then began questioning Petitioner. Petitioner inquired of law

Page 4 of 19

enforcement whether they had an arrest or search warrant of the private property where
Petitioner worked. They responded that they did not and was only asking Petitioner to come with
them to answer a few questions at the station. Petitioner refused to accompany them and told law
enforcement officers to exit the property.
Once Petitioner refused to accompany law enforcement officers to the station for
questioning, law enforcement brutally assaulted Petitioner; even though, Petitioner never did
anything to threaten them.1 Law enforcement officers grabbed Petitioner from behind and
slammed Petitioner face first into the grill of a Mack Semi Truck. Law enforcement officers
began twisting and lifting Petitioner's left arm up behind his back with Petitioner's face smashed
into the front grill of the Mack Semi Truck. Law enforcement's twisting and lifting of Petitioner's
left arm caused the dislocation of Petitioner's left shoulder and the breaking of Petitioner's left
collar bone.
Petitioner was in excruciating pain once his collar bone broke and his shoulder dislocated,
causing Petitioner to fall down. Law enforcement assisted with Petitioner's fall by slamming
Petitioner to the ground face first and one law enforcement officer placed his knee onto
Petitioner's spine at the base of his neck. Another law enforcement officer then kicked Petitioner
on the side of Petitioner's head, causing Petitioner to vomit. Petitioner was then placed into the
back of a police SUV and locked in. The SUV’s windows were not rolled down and no air
conditioning was turned on. Petitioner was handcuffed tightly behind his back with a dislocated
shoulder and broken collar bone. The sun was bright and shining on the SUV that had no
ventilation with the temperatures in the high 90s to be baked alive in the vehicles as the
1

These are some of the same officers that brutally beat Derrick Price shortly after they assaulted and beat
Petitioner. Four out of the five were convicted in Ocala Federal District Court on falsely making police report to
hide what they did beating of Derrick Price. (See Appendix J)

Page 5 of 19

temperature went beyond a 100 degrees for well over an hour. Law enforcement then illegally
entered three different owners’ vehicles and stole two of those vehicles with thousands of dollars
worth of the Petitioner’s personal property inside one of them without having or finding probable
cause that a criminal offense had been committed by the owners of the vehicles. Then forced the
owner of the stolen vehicles to buy their vehicles back for a large sum of money or they would
be sold at public auction on September 11,2013.
Petitioner asked law enforcement officers repeatedly to be taken to the hospital for
treatment of his injuries that was causing severe overwhelming physical pain to the Petitioner.
Law enforcement officers repeatedly denied Petitioner’s request for medical assistance. Law
enforcement officers subsequently informed Petitioner that he would not receive any medical
care no matter how much physical pain he was suffering until he answered all of the questions
the detective had for him to their satisfaction. Only after the questions were answered by
Petitioner and the detective approved of the answers would Petitioner receive medical care. After
speaking with law enforcement officers, Petitioner still never received medical attention for his
collar bone or shoulder and continues to suffer from the broken collar bone. Which no medical
care was ever given even after being made to go to the police station and answer all their
question; leaving Petitioner now physically crippled.
Ultimately, Petitioner waived his Miranda rights and spoke with detectives under fear of
his life and the very badly needed medical attention. At this time, Petitioner was 53 years old and
already in bad health. The assault merely exacerbated Petitioner’s health concerns and effects.
Petitioner was appointed four separate counsels during the pretrial proceedings, with
Attorney Hamburg being the last, before ending up representing himself. Ultimately, each

Page 6 of 19

attorney informed Petitioner that they were not going to investigate his case and refused to file
numerous motions that Petitioner asked them to file. (See Composite Appendix I, p. 495). Since
these attorneys refused to do any investigation and refused to file motions for Petitioner,
Petitioner was forced to move for a Nelson hearing. After the third Nelson hearing and his
attorneys still refused to prepare his case for trial despite being ordered by the judge to do the
investigation and Petitioner’s continued complaints, he was given the choice of either retaining
counsel for himself, continuing with Attorney Hamburg as appointed counsel, or represent
himself at trial. Since these attorneys already informed Petitioner that they were not going to do
anything for him and clearly showed him they were not going to prepare his case for trial even
after the judge ordered them to twice to investigate the case, that he should just take a plea, and
Petitioner did not have the money available to hire private counsel, Petitioner was forced to take
the only option available that would merit some form of defense against the alleged offenses.
Petitioner, therefore, under duress and because the judge would not appoint a conflict free
attorney that would defend him against the unsupported accusations against him, moved the
lower court to permit Petitioner to represent himself. (See Composite Appendix I, p. 495).
The lower court granted the motion after inquiry and appointed Attorney Hamburg as
back up counsel. The lower court stressed that back up counsel could not take any actions or
advise Petitioner in any capacity on his own accord; Petitioner must specifically request back up
counsel’s advice or inform him of the action that he wants back up counsel to take. Back up
counsel could not act on his own.
PROCEEDINGS IN THE DISTRICT COURT
On July 9, 2018, Petitioner filed in the Middle District of Florida his 28 U.S.C. § 2254

Page 7 of 19

wherein he attacked the judgment and sentence of the Marion County, Florida court. Petitioner
was convicted after trial an unconstitutional trial of six jurors of lewd and lascivious molestation
of a victim under the age of 12 that occurred on July 9, 2015. Petitioner was sentenced to 35
years incarceration. Petitioner argued that counsel was ineffective for numerous reasons
particularly dealing with violations of Petitioner's Fourth, Fifth, Sixth, Eighth, and Fourteenth
Amendments of the United States Constitution.
The State responded that the petition was timely filed but argued that the claims as argued
were procedurally defaulted. Specifically, the State argued that the lower court's summary denial
of his rule 3.850 motion for facial and legal insufficiency procedurally defaulted those claims.
The Middle District of Florida dismissed Petitioner's Petition for Writ of Habeas Corpus
on July 15, 2019, as being procedurally defaulted and unexhausted.
PROCEEDINGS IN THE ELEVENTH CIRCUIT COURT OF APPEALS ON COA
On March 30, 2020, this Court granted a Certificate of Appealability on whether the
District Court erred in failing to conduct a Martinez analysis of the claims of ineffective
assistance of counsel.
In response, the State argued that Martinez does not apply to Petitioner's claims because
Martinez only applies to ineffective assistance of trial counsel claims when the rule 3.850
requires Petitioner to file ineffective assistance of trial counsel claims in postconviction relief.
The State argued that since Petitioner failed to appeal the lower court's denial of the rule 3.850,
that Martinez does not apply. Further, the State argued that the denial was on the merits under the
Eleventh Circuit's precedents.
In addition, the State argued that the ineffective assistance of trial counsel claims were

Page 8 of 19

waived when Petitioner chose to represent himself during trial. Petitioner cannot now claim to
have been ineffective in representing himself.
The Eleventh Circuit Court of Appeals affirmed the District Court’s denial of Petitioner's
Petition for Writ of Habeas Corpus on March 10, 2021, and denied Petitioner's timely motion for
reconsideration on July 13, 2021. While the court held that Petitioner could still challenge prior
counsel’s pretrial representation, effectively denying the State’s contrary argument, even though
Petitioner represented himself at trial, the court also held that Petitioner did not prove a
substantial claim sufficient to warrant Martinez application on any of the claims.

Page 9 of 19

REASONS FOR GRANTING THE PETITION
I.

This Court has held that it constitutes cruel and unusual punishment under the
Fourth and Eighth Amendment when law enforcement use excessive force when
arresting petitioners. This Court has not, however, addressed if after using such
unprovoked excessive force any subsequent evidence obtained during an
interrogation should be suppressed as being coerced, compelled, involuntary.
(A) Excessive Use of Force During Arrest
Since before 1985, this Court has held that the infliction of more force than necessary or

called for in a given situation is excessive if it is done maliciously and with ill intent to cause
harm, when such force is analyzed under an objective standard. See Tennessee v. Gamer, 471
U.S. 1, 85 L.Ed.2d 1,105 S. Ct. 1694 (1985). Specifically, the use of force is reasonable only if it
was necessary in the situation at hand. “We evaluate whether force was constitutionally
necessary by examining several factors, including: “[1] the severity of the crime at issue, [2]
whether the suspect poses an immediate threat to the safety of the officers or others, and [3]
whether [the suspect] is actively resisting arrest or attempting to evade arrest by flight.” Brand v.
Casal, 877 F. 3d 1253, 1263 (11th Cir. 2017) (quoting Graham, 490 U.S. at 396, 109 S. Ct. at
1872).
(B) Involuntariness of Statement After Law Enforcement’s Unprovoked Use of Force Against
Petitioner.
“The Fifth Amendment, made applicable to the States by the Fourteenth Amendment,
requires that “[n]o person ... shall be compelled in any criminal case to be a witness against
himself.” See Chavez v. Martinez, 538 U.S. 760, 766, 155 L.Ed.2d 984, 993, 123 S. Ct. 1994
(2003). This Court has even held that confessions or statements made sometime after an assault
and beating was unconstitutionally coerced. See Brown v. Mississippi, 297 U.S. 278, 283 (1936).

Page 10 of 19

(C) Petitioner’s Statement after being beaten by Law Enforcement was therefore obtained and
introduced into Petitioner’s trial in violation of Petitioner’s Fifth Amendment Right
In this case, Petitioner was assaulted and badly beaten by Marion County Law
Enforcement officers while Petitioner was at his place of work. Petitioner was grabbed by police
when he told police to leave the property because they did not have a warrant and was slammed
face first into the grill of a Mack Semi-Truck. Law enforcement then proceeded to pull
Petitioner’s left arm up behind Petitioner's back while forcing Petitioner face into the grill of the
semi. After screaming from the pain and hearing a tearing and feeling a cracking sensation in
Petitioner's left shoulder, Petitioner's legs sagged from under him and law enforcement slammed
Petitioner onto the ground face first. This action further dislocated Petitioner’s shoulder and
broke Petitioner's left collar bone in half. The police then placed their knee onto the base of
Petitioner's neck, almost causing him to pass out because of the pain. Law enforcement officers
also kicked Petitioner in the side of his head while he lay on the ground causing him to vomit.
Petitioner never did anything, any act - verbal or otherwise, to warrant the Marion
County law enforcement officers use force against him. Other than Petitioner telling them to
leave the posted property since they did not have a warrant for either him or the place he was at,
Petitioner never made any moves or actions that hinted at his resistance, intent to assault the
officers, or to run. Petitioner was 53 - year old male, and already not in good health.
Based upon the foregoing, this Court should accept jurisdiction in this case to consider
and determine whether after the police assault and beat a Petitioner any statement obtained from
that point forward can be considered voluntarily provided even where the Petitioner signs a
Miranda waiver form while under overwhelming physical pain from his injuries he received by
law officers just hours before and was denied all medical care for these injuries when he
Page 11 of 19

*

I

*•

requested medical call many times overs. The police used physical pain to get the Petitioner to
sign his rights away to remain silent.
II.

This Court has determined that a Petitioner has the right to represent himself at
trial. This Court has not determined, however, whether a Petitioner’s
representation of himself at trial was the result of an unconstitutional waiver of
counsel when his counsel refused to conduct the pretrial investigation of the case
as directed by Petitioner and the Court - his principal, forcing Petitioner to
represent himself in an attempt to present a defense to the alleged crimes.
(A) Petitioner has a Sixth Amendment Right to Represent Himself
Since 1975, this Court has held that petitioners have the Sixth Amendment Right to

represent themselves. See Faretta v. California, 422 U.S. 806, 821, 95 S. Ct. 2525, 45 L.Ed.2d
562, 574 (1975). However, the caveat was provided that a Petitioner who represents themselves
also accepts the obligations and restrictions that accompany the representation of themselves. Id.
at 835. The waiver of counsel or request to represent himself, however, must be voluntary.
(B) Confirmed Principal-Agent Relationship and Assignment of Liability
Since 1962, this Court has held that a lawyer is the agent of the client. See Link v. Wabash
R. Co., 370 U.S. 626, 634, 82 S. Ct. 1386, 8 L.Ed.2d 734 (1962). Almost 30 years later, this
Court elaborated that “because the attorney is the prisoner's agent, and under 'well-settled
principles of agency law,' the principal bears the risk of negligent conduct on the part of his
agent.” Maples v. Thomas, 565 U.S. 266, 132 S. Ct. 912, 181 L.Ed.2d 807, 821 (2012) (quoting
Coleman v. Thompson, 501 U.S. 722, 753, 111 S. Ct. 2546, 115 L.Ed.2d 640 (1991)).
(Cl Well-Settled Principal-Agent Law
This Court also historically considers the Restatement legal treatise “and its included
comments when making its decisions on pertinent aspects of the law. See Maples, 181 L.Ed.2d at
822. See Burlington Indus, v. Ellerth, 524 U.S. 742, 755, 118 S. Ct. 2257, 141 L.Ed.2d 633

Page 12 of 19

*

*
*:

t

(1998) (“the Restatement (Second) of Agency ... is a useful beginning point for a discussion of
general agency principles.”)
Under this well-settled law, the principal exercises full control over the agent’s actions.
“An essential element of agency is the principal's right to control the agent's actions. Control is a
concept that embraces a wide spectrum of meanings, but within any relationship of agency the
principal initially states what the agent shall and shall not do, in specific or general terms.
Additionally, a principal has the right to give interim instructions or directions to the agent once
the relationship is established.” Restatement (Third) of Agency § 1.01 cmt. f(l).
In furtherance therefore, a “principal” is defined as “one who has authorized another to
act on his account and subject to his control.” Langfitt v. Federal Marine Terminals, Inc., 647 F.
3d 1116, 1120 (11th Cir. 2011) (citing Restatement (Second) of Agency § 1(1), (2), cmt. d (1958).
An “agent” is defined as “one authorized by another (i.e., the principal) to act on the other's
account and under the other's control.” Ibid, (citing Restatement (Second) of Agency § 1(1), (2),
cmt. e (1958) (Emphasis added)).
(D) Petitioner's Involuntary Waiver of his Constitutional Right to Competent Representation bv
Counsel.2
This Court has held that while a Petitioner has the constitutional right to represent
himself, the waiver of counsel's effective assistance must be voluntary. In addition, this Court has
determined that principal-agent law governs the interaction between a client and his lawyer.
Because of this previous determination, Petitioner is in control over his agent's actions. Unless
Petitioner can control his agent's actions, he cannot be held accountable for the errors his agent

2 The Court also has a duty to make sure the Petitioner's attorney will defend his client not just be a warm body in
a suit. See Voh Moltke v. Gillies, 332 U.S. 708, 725-26, 68 S. Ct. 316, 324. See also Merits Evitts, 469 U.S. at
395, 105 S. Ct. 835, and Herrign v. New YorkAll U.S. 853, 862, 95 S. Ct. 2550,2555 (1975).

Page 13 of 19

makes.
This Court has held that the client is liable for his agent's negligent acts or omissions. For
that to be so, the principal must be able to inform his agent as to what acts that he must do and
have full expectations that his interim instructions will be followed. This is the core of the
principal-agent relationship.
In this case, Petitioner provided his agent with interim instructions consisting of
interviewing and securing death bed testimony from a witness, filing motions to suppress
statements based upon a warrantless arrest, interviewing numerous witnesses regarding
Petitioner’s assault and battery by officers, the filing of a motion for a twelve person jury, and the
securing of other witnesses' testimony. Petitioner's agent then informed the principal that he
would not do any research or investigate these witnesses for him, and would not file the
requested/ directed motion.3 Petitioner then sought a court order while represented by counsels
directing his attorneys to investigate and deposition numerous witnesses that they had previously
informed Petitioner that they would not interview or deposition the witnesses requested. The
lower court held a Nelson hearing - the first and second such hearings in this case - and ordered
his attorneys to conduct the investigation and to deposition the witnesses.4 After each of his
former attorneys informed Petitioner that they will not do what he asked them to do and did not
provide further explanation as to why they refused to assist him in his defense, Petitioner felt that
he was forced to represent himself. (See Composite Exhibit I). In fact, Petitioner's April 17, 2015

3 Petitioner also informed counsels to file a motion to challenge the constitutionality of Florida's law permitting a
six member jury rather than the twelve required by the constitution that Petitioner filed on his own after counsels
refused. (See Appendix K)
4 Petitioner avers that he would attach copies of the Nelson hearing transcripts that he has referenced to
substantiate his claims herein, Petitioner has been denied by the lower court all access to the Nelson hearing
transcripts. Therefore, Petitioner is unable to attach them as an appendix or cite to the page number therein. Had
Petitioner not been indigent, Petitioner would have sought their transcription and reproduction to include herein.

Page 14 of 19

Motion to Take Judicial Notice references him being forced to defend himself because the
appointed counsel refused to defend him or even prepare for trial (See Composite Appendix I).
Petitioner has mentioned being forced to proceed pro se numerous times (See Composite
Appendix I). Petitioner’s attorneys still refused to conduct the requisite investigation and
depositions, despite the court ordering them to do so. Se. 5
Once Petitioner proceeded pro se, Petitioner filed the motion demanding a 12 person jury.
The lower court denied the motion without being able to inform Petitioner where the authority
came from that permitted the seating of a six-person jury. Sc. 4
Further, had any of Petitioner's former appointed attorneys conducted any investigation or
read Petitioner's letters to Attorney Scott Bishop, motive and reputation as to veracity evidence
was present that would have and should have been adduced through interviewing and deposition
the alleged victim, victim's mother, and victim's mother's boyfriend (See Composite Appendix I).
In addition, Petitioner was forced to represent himself while in extreme overwhelming physical
pain because he was never treated for the broken collar bone and dislocated shoulder. Even his
pain medication was deliberately taken from him after he went pro se.5 Because of this,
Petitioner's waiver of his representation by counsel was not voluntary. See Iowa v. Tovar, 541
U.S. 77, 81, 158 L.Ed.2d 209, 124 S. Ct. 1379 (2004).
This Court should therefore accept Certiorari Jurisdiction to answer this most important,
universally applicable question.

5 Thompson v. Utah,42 L.Ed. 1061, 170 U.S. 343 (Apirl 1898); Patton v. United States, 74 L.Ed. 854, 281 U.S.
276 (April 1930); Ramos v. Louisiana, 140 S. Ct. 1390, 206 L.Ed.2d 583, 2020 U.S. LEXIS 240; 8 Fla. L.
Weekly Fed. S 144 N. 18-5924.
Page 15 of 19

III.

This Court has held that when a petitioner is represented by counsel that the
petitioner is liable for the actions and inactions of his counsel because counsel is
the principal's agent. This Court has not, however, considered whether counsel's
failure to abide by their principal's interim instructions regarding pretrial
investigations terminates their agent status.
(A) Confirmed Principal-Agent Relationship and Assignment of Liability
Since 1962, this Court has held that a lawyer is the agent of the Client. See Link v.

Wabash R. Co., 370 U.S. 626, 634, 82 S. Ct. 1386, 8 L.Ed.2d 734 (1962). Almost 30 years later,
this Court elaborated that “because the attorney is the prisoner’s agent, and under 'well-settled
principles of agency law,’ the principal bears the risk of negligent conduct on the part of his
agent.” Maples v. Thomas, 565 U.S. 266, 132 S. Ct. 912, 181 L.Ed.2d 807, 821 (2012) (quoting
Coleman v. Thompson, 501 U.S. 722, 753, 111 S. Ct. 2546, 115 L.Ed.2d 640 (1991)).
(B1 Well-Settled Principal-Agent Law
This Court also historically considers the Restatement legal treatise “and its included
comments when making its decisions on pertinent aspects of the law. See Maples, 181 L.Ed.2d at
822. See Burlington Indus, v. Ellerth, 524 U.S. 742, 755, 118 S. Ct. 2257, 141 L.Ed.2d 633
(1998) (“the Restatement (Second) of Agency ... is a useful beginning point for a discussion of
general agency principles.”)
Under this well-settled law, the principal exercises full control over the agent’s actions.
“An essential element of agency is the principal’s right to control the agent's actions. Control is a
concept that embraces a wide spectrum of meanings, but within any relationship of agency the
principal initially states what the agent shall and shall not do, in specific or general terms.
Additionally, a principal has the right to give interim instructions or directions to the agent once
the relationship is established.” Restatement (Third) of Agency § 1.01 cmt. f(l).

Page 16 of 19

In furtherance therefore, a “principal” is defined as “one who has authorized another to
act on his account and subject to his control.” Langfitt v. Federal Marine Terminals, Inc., 647 F.
3d 1116, 1120 (11th Cir. 2011) (citing Restatement (Second) of Agency § 1(1), (2), cmt. d (1958).
An “agent” is defined as “one authorized by another (i.e., the principal) to act on the other’s
account and under the other's control.” Ibid, (citing Restatement (Second) of Agency § 1(1), (2),
cmt. e (1958)(Emphasis added)).
(C) The Agent's Breach of Lovaltv (Dutvl and Termination of Agency
“[T]he authority of an agent terminates if, without knowledge of the principal, he acquires
adverse interests or if he is otherwise guilty of a serious breach of loyalty to the principal.”
Maples, 565 U.S. at 284, 132 S. Ct. at 924. Referencing the Restatement for an explanation of
what constitutes a breach of loyalty sufficient to terminate the agency, the Eleventh Circuit Court
of Appeal explained “the agent commits a breach of duty [of loyalty] to his principal by acting
for another in an undertaking which has a substantial tendency to cause him to disregard his duty
to serve his principal with only his principal's purposes in mind.” Cadet v. Fla. Dep't of Corn,
853 F. 3d 1216, 1230 (11th Cir. 2017) (quoting Maples, 565 U.S. at 284, 132 S. Ct. at 924)). This
definition of breach of loyalty, however, is far too limiting. The “acting for another” language
requires a showing of conflict between two people, not including the principal. Here, we have a
conflict but not between two people, but of control - an essential element of agency.
(D1 An Agent's Refusal to Act Based on their Principal's Interim Instructions Terminates the
Agent's Status.
In this case, Petitioner's appointed counsels refused to abide by their principal’s interim
instructions as to the conduct of the pre-trial investigation and presentation during trial, without
informing the principal why they refused to do as Petitioner directed.
Page 17 of 19

The primary factor governing the principal-agent relationship is the ability of the
principal to control the agent’s actions. Only through this explicitly-required control can a
principal be held liable for the negligent acts of his agent. Without this control, no agency would
exist. The same is true when this Court considers the instant case.
Petitioner informed his agents after appointment that they were to interview numerous
witnesses. Allegedly, these witnesses would provide evidence of the alleged victim's veracity and
reputation for veracity, motive testimony for the victim to fabricate the charges against
Petitioner, testimonial evidence that Petitioner was not the one sexually abusing the victim, that
the victim also stole several thousands of dollars from Petitioner's bank and credit card accounts,
inter alia.6 Petitioner’s counsels/agents refused to conduct the interviews as requested.
Subsequently, the one witness that was already sick with cancer and was known to be dieing died
along with her testimony that she observed the mother's boyfriend sexually abusing the victim in
her own house and overheard the victim's mother and grandmother making plans to get the
Petitioner falsely arrested the very night before the police was given the false statement to get his
home searched.
Importantly, this case involves an agent who explicitly refused to abide by interim
instructions provided by his principal. Such an express refusal to abide by his principal's interim
instruction does constitute abandonment of the principal-agent relationship. This shows that the
principal does not have the integral requirement over his agent that should exist: control. As
such, without that requirement, no principal-agent relationship exists. Restatement (Third) of
Agency § 1.01 cmt. f(l). Furthermore, when the agent refuses to abide by the interim instructions

6 Also that there were nine highly trained professionals that believed the deliberate lies the victim told to get her
own mother arrested on fake accusations. They refused to interview to get evidence to impeach the state witness.

Page 18 of 19

provided by the principal without explanation, the agent has abdicated his position as the
principal's agent. In no State or Federal Court has an evidentiary hearing ever been allowed to
get at the root of why four court appointed attorneys deliberately refused to prepare the
Petitioner's case for trial. Even the Chief Justice of the Eleventh Circuit Court of Appeal states
that an evidentiary hearing should be held prior to any ruling being given on the merits of the
case before it. See Chandler v. United States, 218 F. 3d 1305, 1314 n. 15 (11th Cir. 2000) (en
banc)
This Court should therefore exercise its Certiorari Jurisdiction to consider and determine
whether the agent's actions abdicated his position as an agent when the agent refuses to abide by
the principal’s interim instructions without explanation.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respect
J/-. _ j^/CsfS/ AT
Darwin Fitfeld^fc# U53497
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Rd.
Crestview, FI. 32539

Page 19 of 19

